<html>
<title> - PENDING NOMINATIONS OF GREGORY B. JACZKO AND PETER B. LYONS</title>
<body><pre>[Senate Hearing 109-652]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-652

      PENDING NOMINATIONS OF GREGORY B. JACZKO AND PETER B. LYONS

=======================================================================

                                HEARING

                               BEFORE THE


                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                                   ON

 THE NOMINATIONS OF GREGORY B. JACZKO AND PETER B. LYONS TO BE MEMBERS 
                  OF THE NUCLEAR REGULATORY COMMISSION

                               __________

                             APRIL 20, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-850 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 20, 2005
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont, 
  prepared statement.............................................    25
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     6
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     4
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     8

                               WITNESSES

Jaczko, Gregory B., nominated by the President to be a member of 
  the Nuclear Regulatory Commission..............................     9
    Committee questionnaire......................................    28
    Letter, Office of Government Ethics..........................    36
    Prepared statement...........................................    26
    Responses to additional questions from Senator Lautenberg....    59
Lyons, Peter B., nominated by the President to be a member of the 
  Nuclear Regulatory Commission..................................    11
    Committee questionnaire......................................    39
    Letter, Office of Government Ethics..........................    46
    Prepared statement...........................................    37
    Responses to additional questions from Senator Lautenberg....    59


















 
      PENDING NOMINATIONS OF GREGORY B. JACZKO AND PETER B. LYONS

                              ----------                              


                       WEDNESDAY, APRIL 20, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Dirksen Senate Office Building, Hon. James Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Warner, Voinovich, Carper, 
Lautenberg, and Obama.
    Senator Inhofe. Our meeting will come to order. We always 
start punctually. Since this is a confirmation hearing, but you 
have already passed that point, it is still necessary to ask 
the two of you each the same questions. So I will ask the 
question, and if you would each respond for the record. Are you 
willing to appear at the request of any duly constituted 
Committee of Congress as a witness?
    Mr. Lyons. Yes.
    Mr. Jaczko. Yes, I am.
    Senator Inhofe. Do you know of any matters which you may or 
may not have thus far disclosed, that might place you in any 
conflict of interest to this position?
    Mr. Lyons. No.
    Mr. Jaczko. No.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. All right, good. I will go ahead and start 
with an opening statement. Today we are going to hear from the 
two Commissioners recently appointed to the Nuclear Regulatory 
Commission: Greg Jaczko and Pete Lyons.
    Both Commissioners are Senate veterans. Commissioner Jaczko 
served on Senator Reid's staff, and prior to that, worked for 
this committee. So he certainly knows his way around here. 
Commissioner Lyons is a former staffer for Senator Domenici and 
the Senate Energy Committee. So we welcome both of you here, 
and we look forward to serving with you.
    Both Commissioners were recess appointed by the President 
in January, and their appointments will not expire for 2 years. 
It is no secret that the process that led to the recess 
appointments was one in which I was highly critical. Over the 
last few years, two Admirals were nominated to the NRC, and 
both withdrew their names out of frustration with the process.
    Numerous other nominees were perpetually held up on the 
Senate floor. This was the result of the controversy over the 
nomination of Commissioner Jaczko, and Senator Reid's strong 
desire to get him on the Commission.
    There had been a number of concerns raised with regard to 
Commissioner Jaczko by those who want to see the success of 
nuclear power continue to grow in the future. His extensive 
work in opposition to licensing of Yucca Mountain is at the 
heart of much of that concern.
    I understand that the Commissioner has recused himself from 
the NRC action on Yucca Mountain for 1 year. I look forward to 
discussing both the parameters and the timing of that recusal 
today.
    I am not holding this hearing to rehash the history of the 
last 2 years. While Commissioner Jaczko's past work on nuclear 
matters has caused concern, I have been pleased to hear reports 
that in his tenure thus far as Commissioner, he has conducted 
himself in a manner that is very fair and very open. I am very 
glad to hear that, and I appreciate that very much. I know that 
will continue.
    Today's hearing is important, because the Commissioners 
have not had the opportunity to share their views with this 
committee on nuclear power and what they see as the role of the 
NRC in regulating nuclear power. As they know, this committee 
has sole jurisdiction in the Senate over the Nuclear Regulatory 
Commission.
    It is important that we fully understand what is guiding 
you, and it is equally important that you understand what we 
hope to see out of the NRC.
    I have spent a good deal of time and energy over the past 
decade working hard to reform the way NRC does business. That 
effort has been very successful. I want to be certain that not 
only will that progress not be reversed, but that the NRC will 
continue to improve.
    In 1998, as Chairman of the Nuclear Subcommittee, I began a 
series of oversight hearings of the NRC. The hearing I held in 
1998 was the first such oversight hearing in many, many years. 
We traced it back as far as we can, and it has been quite some 
time. I do not think that any bureaucracy, any commission, can 
go without any oversight, and I think we have a lot of progress 
as a result of that.
    When I began conducting oversight of the NRC, I did so with 
the goal of changing the bureaucratic atmosphere that had 
infected the NRC. By 1998, the NRC had become an Agency of 
process, not results. It was neither efficient nor effective. 
If the Agency was to improve, it has to employ a more results-
oriented approach, one that was risk-based and science-based, 
and not one mired in unnecessary process and paperwork.
    I am pleased that in the last 7 years, we have seen 
tremendous strides, and those who work for the NRC should be 
proud. This approach has made the NRC a lean and more effective 
regulatory Agency.
    I have always been an advocate of nuclear energy, and 
nuclear power has proven to be a safe, reliable, and clean 
source of energy. Over the next 15 years, our energy demands 
will increase by nearly 30 percent. If we are to meet the 
energy demands of the future, and we are serious about reducing 
utility emissions, then we should get serious about the zero 
emissions energy production that nuclear power provides.
    Nuclear facilities are more efficient and safe today than 
ever before, and we are exploring new, even better 
technologies. We should be excited about the future of nuclear 
energy. I am pleased with the NRC's commitment to both license 
renewal and new reactor licensing, as they are key to the 
continued success of this clean, efficient energy.
    The committee will be active this year on legislation 
pertaining to the NRC. Senator Voinovich and I will be 
introducing three bills today dealing with nuclear power: 
reauthorization of Price-Anderson; the nuclear security bill; 
and reauthorization of the fees bill that this committee passed 
by unanimous consent almost 5 years ago.
    Staff is already in preliminary discussions with the 
Minority on these issues, and I anticipate an NRC oversight 
hearing in the future, as well as a classified hearing on the 
nuclear security. It is my hope to have these bills out of the 
committee in the very near future.
    I want to thank the Commissioners for being here today, and 
I look forward to your testimony.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Good morning, today we are going hear from two Commissioners 
recently appointed to the Nuclear Regulatory Commission: Greg Jaczko 
(YATSKO) and Pete Lyons. Both Commissioners are Senate veterans. 
Commissioner Jaczko served on Senator Reid's staff and prior to that 
worked for this committee. Commissioner Lyons is a former staffer for 
Senator Domenici and the Senate Energy Committee. Welcome to both of 
you. Commissioner Jaczko, welcome back to EPW.
    Both Commissioners were recess-appointed by the President in 
January and their appointments will not expire for 2 years. It's no 
secret that the process that led to the recess appointments was one in 
which I was highly critical. Over the last few years two Admirals were 
nominated to the NRC and both withdrew their names out of frustration 
with that process. Numerous other nominees were perpetually held up on 
the Senate floor. This was the result of the controversy over the 
nomination of Commissioner Jaczko and Senator Reid's strong desire to 
get him on the Commission. There had been a number of concerns raised 
with regard to Commissioner Jaczko by those who want to see the success 
of nuclear power continue to grow in the future. His extensive work in 
opposition to licensing of Yucca Mountain is at the heart of much of 
that concern.
    I understand that the Commissioner has recused himself from NRC 
action on Yucca Mountain for one year I look forward to discussing both 
the parameters and timing of the that recusal today.
    I am not holding this hearing to rehash the history of the last 2 
years. While Commissioner Jaczko's past work on nuclear matter has 
caused concern, I have been pleased to hear reports that in his tenure 
thus far as Commissioner, he has conducted himself in a manner that is 
both fair and open. It is my hope that this will continue. Today's 
hearing is important because these Commissioners have not had the 
opportunity to share their views with this committee on nuclear power 
and what they see as the role of the NRC in regulating nuclear power. 
And as they know, this committee has sole jurisdiction in the Senate 
over the Nuclear Regulatory Commission. It is important that we fully 
understand what is guiding you, and it is equally important that you 
understand what we hope to see out of the NRC.
    I have spent a good deal of time and energy over the past decade 
working hard to reform the way NRC does business. And that effort has 
been very successful. I want to be certain that not only will that 
progress not be reversed, but that the NRC will continue to improve.
    In 1998, as chairman of the Nuclear Subcommittee, I began a series 
of oversight hearings of the NRC. The hearing I held in 1998 was the 
first held by this committee in years. Fortunately, every year since 
that time we have had the Commission appear before us. Senator 
Voinovich has continued this rigorous oversight as the current chairman 
of that subcommittee.
    When I began conducting oversight of the NRC, I did so with the 
goal of changing the bureaucratic atmosphere that had infected the NRC. 
By 1998, the NRC had become an Agency of process, not results. It was 
neither efficient nor effective. If the Agency was to improve it had to 
employ a more results-oriented approach--one that was risk-based and 
science-based, not one mired in unnecessary process and paperwork. I am 
pleased that in the last 7 years, we have seen tremendous strides and 
those who work for the NRC should be proud. This approach has made the 
NRC a lean and more effective regulatory Agency.
    I have always been an advocate of nuclear power. Nuclear power has 
proven to be a safe, reliable and clean source of energy. Over the next 
15 years, our energy demands will increase by nearly 30 percent. If we 
are to meet the energy demands of the future, and we are serious about 
reducing utility emissions, then we should get serious about the zero 
emissions energy production that nuclear power provides. Nuclear 
facilities are more efficient today than ever before--and we are 
exploring new, even better technologies. We should be excited about the 
future of nuclear energy. I am pleased with NRC's commitment to both 
license renewal and new reactor licensing, as they are key to the 
continued success of this clean, efficient energy.
    The committee will be active this year on legislation pertaining to 
the NRC. Just this week three bills were introduce by Senator Voinovich 
and myself dealing with nuclear power: reauthorization of Price 
Anderson; a nuclear security bill; and reauthorization of a fees bill 
that this committee passed by unanimous consent almost 5 years ago. 
Staff is already in discussions with the Minority on these bills, and I 
anticipate an NRC oversight hearing in the near future as well a 
classified hearing on nuclear security. It is my hope to have these 
bills out of committee in the very near future.
    I want to thank the Commissioners for being here today and I look 
forward to their testimony.

    Senator Inhofe. Senator Voinovich, before you came in, we 
went through the required questions. Since they are already on 
the Commission it is not like the normal type of hearing that 
we have. So I recognize you at this time.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    I think it is wonderful that we are having this hearing, 
and I welcome our two Commissioners here this morning. Mr. 
Jaczko and Mr. Lyons, thank you for being here today.
    Mr. Chairman, you and I both take oversight 
responsibilities of the NRC very seriously. You set the tone, 
and I am trying to follow in your footsteps. Together, we have 
held six oversight hearings of the NRC, starting in 1998, when 
you were Chairman of the Clean Air Climate Change and Nuclear 
Safety Committee, which I now chair.
    An important part of this oversight involves close scrutiny 
of those individuals who are nominated by the President to lead 
the Commission. That is why I signed a letter, along with 14 of 
my colleagues, in November 2004, urging Leader Frist to not 
confirm the Republican or Democratic nominees to the Commission 
without a hearing.
    Due to Senator Reid's insistence that many other nominees 
not be confirmed by the Senate until Mr. Jaczko be placed on 
the Commission, President Bush recess appointed both of you to 
the Commission. I strongly believe that circumventing this 
committee and the Senate is the wrong way to do things, but 
that is the way it happened.
    Mr. Chairman, I thank you for your strong leadership in 
holding this hearing today. Although the nominees are both 
already serving on the Commission, I welcome the opportunity to 
ask them some important questions on the record.
    Mr. Jaczko, I signed the letter, not only because of 
process concerns, but also because of significant questions 
about your impartiality. We had a wonderful meeting in the 
office, and I appreciate the time that you spent with me. I am 
not going to go into all the details. We know what they are.
    I would like to say that I am pleased, along with what the 
Chairman had to say, that the reports are that you have been 
fair and open as a Commissioner. However, I have been in this 
business long enough to understand that perception is not often 
reality.
    I look forward to talking with you further about how some 
of these things, in terms of negative perceptions, can be 
worked out. I think the most important thing is that your 
actions speak louder than your words, and I have to say, good 
job.
    You also have agreed to recuse yourself from NRC action on 
Yucca Mountain for 1 year. Like the Chairman, I would like to 
talk about some of the details and what that recusal means.
    Mr. Lyons, your nomination and confirmation occurred very 
quickly after the other pending nominee withdrew his name. I am 
concerned that the speed at which you went through the process 
did not allow enough time to be fully vetted. I thank you for 
coming in to meet with me personally. I enjoyed meeting with 
you, also.
    All that being said, I look forward to hearing your words 
this morning, and having you answer some of our questions. I 
know this is a special day for your respective families, 
because of the fact that they are here today. I just want to 
thank them for the sacrifice that they have made. Mr. Jaczko, 
you have been through a little bit more than Mr. Lyons.
    I know it is really interesting in life. Those of us who 
are in the business get a lot of flak. And we can take it, 
because it is part of it. But for our families, it is very 
difficult. I know my mother, when I was Mayor of the city of 
Cleveland, chose not to subscribe to the Cleveland Plain 
Dealer. She just did not. She said, ``I just do not want to 
read it any more, George.''
    So we thank you for what you have been through. It is 
harder on the families. So thank you, Mr. Chairman.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Good morning. Mr. Jaczko and Mr. Lyons, thank you for being here 
today.
    Mr. Chairman, you and I both take our oversight responsibilities of 
the Nuclear Regulatory Commission very seriously. Together, we have 
held six oversight hearings of the NRC starting in 1998 when you were 
chairman of the Clean Air, Climate Change, and Nuclear Safety 
Subcommittee that I now chair.
    An important part of this oversight involves close scrutiny of 
those individuals that are nominated by the President to lead the 
Commission.
    That is why I signed a letter along with 14 of my colleagues in 
November 2004 urging Majority Leader Frist to not confirm the 
Republican or Democrat nominees to the Commission without a hearing.
    Due to Senator Reid's insistence that many other nominees not be 
confirmed by the Senate until--you Mr. Jaczko--be placed on the 
Commission, President Bush recess appointed both of you. I strongly 
believe that circumventing this committee and the Senate is the wrong 
way to do things.
    Mr. Chairman, I thank you for your strong leadership in holding 
this hearing today. Although the nominees are both already serving on 
the Commission, I welcome the opportunity to ask them some important 
questions on the record.
    Mr. Jaczko, I signed the letter not only because of process 
concerns but also because of significant questions about your 
impartiality. As a senior policy advisor to Senator Reid, you worked 
for several years against important issues that will be or are before 
the Commission--specifically the licensing of Yucca Mountain as the 
Nation's nuclear waste repository.
    As the Chairman mentioned in his opening statement, I too am 
pleased with reports that you have been fair and open thus far as a 
Commissioner. However, I have been in this business long enough to 
understand that `perception is often reality'. I look forward to 
talking with you further about how you will overcome these negative 
perceptions. Additionally, I understand that you have agreed to recuse 
yourself from NRC action on Yucca Mountain for 1 year, and I would like 
to talk to you about the details of that recusal today.
    Mr. Lyons, your nomination and confirmation occurred very quickly 
after the other pending nominee withdrew his name. I am concerned that 
the speed at which you went through this process did not allow enough 
time for you to be fully vetted. I thank you for coming in to meet with 
me recently and look forward to asking you additional questions today.
    With all of that being said, I want to look forward. I thank you 
both and your families for your willingness to serve. The NRC plays a 
critical role in the welfare of the American public and their number 
one concern must be safety.
    The NRC currently has a very full plate, including:
    <bullet> Considering license renewals, applications for new plants 
and power up-rates at existing plants, and the licensing of the Yucca 
Mountain nuclear waste repository;
    <bullet> Ensuring public confidence in nuclear power and that 
nothing like the Davis-Besse incident ever occurs again; and
    <bullet> Evaluating and strengthening security at the Nation's 
nuclear plants.
    I want to make sure that the NRC has the budget and personnel to 
get the job done well in all of these areas. I recently met with 
Chairman Diaz who told me that increases are needed for fiscal year 
2006, and I want to hear both of your thoughts on what the Commission 
needs as well.
    While the NRC will be busy, this committee and my subcommittee will 
also be very busy over the next 2 months on nuclear issues. First, 
Chairman Inhofe and I introduced three pieces of legislation today on 
reauthorization of the Price Anderson nuclear insurance program, 
nuclear security, and reauthorization of the fees that make up a large 
part of NRC's budget. These bills have all been considered by the 
committee in the past, and I hope to get them reported out of the 
committee before June.
    Second, I plan to hold the annual NRC oversight hearing when we 
return from the recess at the end of this month. Third, in May, I am 
working with Chairman Inhofe to hold a classified hearing on nuclear 
security.
    Mr. Chairman, thank you again for your strong leadership and for 
holding this important hearing. I look forward to hearing from our 
witnesses today.
    Thank you.

    Senator Inhofe. Thank you, Senator Voinovich. I might add, 
my wife and I, we canceled our subscription to the Tulsa Daily 
World 25 years ago. So that is a policy.
    I want to say this about Senator Voinovich. He is now 
chairman of the subcommittee that I chaired. There is no one in 
America more qualified to deal with the air issues and the 
nuclear issues than he is. He has an extensive background in 
that.
    I will recognize Senator Lautenberg, for an opening 
statement.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Mr. Chairman. 
Holding this hearing is very important to me. New Jersey has 
its problems, which I will talk about.
    We have two people before us today, that we are pleased 
that you bring the capabilities that you each do. Senator Reid, 
particularly, Mr. Jaczko, appreciated your service; Senator 
Jack Reid and Senator Harry Reid.
    Now that we have that straight, we can get on to the other 
things. I know that members of the committee and staff are 
familiar with these nominees. Mr. Jaczko formerly worked for 
Senator Harry Reid, and Mr. Lyons worked for Senator Domenici. 
The NRC is rarely in the public spotlight. But its mission is 
crucial, and will only become more important in the future.
    Now my home State gets more than half of its electric power 
from three nuclear facilities. Nuclear power is vital to the 
economy of our region.
    Mr. Chairman, I cannot help but think about what happened 
when we closed down two brand-new facilities, one in New 
Hampshire and one in Long Island. It cost billions of dollars. 
We were unwilling to accept the presence of these facilities 
and the locations they were at.
    Now we find ourselves leaning far more to the dependence on 
nuclear facilities than ever before. The main thing that we are 
concerned about, as we have heard discussions in the Senate and 
the Congress for a long time, is the fact that nuclear power is 
vital to the economy of our region. I believe it has the 
potential for the future as a source of energy that does not 
produce air pollution, that is common from other power plants.
    But public safety must always, always be the No. 1 concern 
with regard to nuclear power facilities. It is the NRC's job to 
make sure that public safety is the top priority.
    In New Jersey, the public and the Department of 
Environmental Protection have some safety concerns about our 
nuclear plants. The Oyster Creek facility, for instance, is the 
oldest operating nuclear facility in the country. It will be 40 
years old when its current license expires in 2009.
    There is significant disagreement in my State about whether 
Oyster Creek should be relicensed. As the time for that 
decision grows closer, it is absolutely essential that we be 
able to turn to the NRC for factual, unbiased information.
    There are also concerns about the safety issues with two 
other plants: the Salem and Hope Creek nuclear power plants. 
Once again, it is up to the NRC to insist that a culture of 
safety is in place at every nuclear facility.
    Now, of course, we have to come up with a safe, feasible 
solution to the problem of nuclear waste. The newly released 
report by the National Academy of Sciences raises a red flag 
about the practice of storing spent fuel rods in pools of 
water.
    Now we all know it is not an easy problem to solve. I am 
also concerned about the potential for a catastrophe during 
transport, should all of this stored nuclear waste be moved to 
one central location.
    Dry cask storage may not be a perfect solution. But it 
might be the best solution that we can find at this time. The 
question is, can we implement a better solution? If we cannot, 
should we go forward using nuclear energy and relying on dry 
cask storage? Without alternatives, we are left in a dilemma 
that seems unsolvable. The answers to these questions have 
tremendous implications for our national energy policy, as well 
as our national security.
    So again, Mr. Chairman, I commend you for getting to this 
hearing. It is long overdue, I think, and I look forward to 
hearing the views of Mr. Jaczko and Mr. Lyons on these and 
other matters. Thank you.
    Senator Inhofe. Thank you, Senator Lautenberg.
    We have been joined by Senator Warner, who is the senior 
member of this committee. He has requested, Mr. Lyons, that he 
introduce you. So after his opening remarks and introduction, 
we will ask each of you to introduce any family that is here 
before we get started.
    Senator Warner.

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you, Mr. Chairman and colleagues of 
the committee.
    This is indeed an individual who requires no introduction, 
but he very graciously asked me to do so, and I am privileged 
to do so. I shall be brief.
    This individual is one of the President's nominees to be a 
Commissioner, as we all know, for the Nuclear Regulatory 
Commission, but his career is extraordinary. He has been in 
both public service and scientific world.
    He spent almost three decades at Los Alamos National 
Laboratory. As you know, that is one of our premiere 
institutions for a wide range of complicated things integral to 
our security system. He served first as a scientist in the 
laboratories and nuclear programs, and later as a manager of 
energy, environment, and industrial partnerships.
    In 1997, Dr. Lyons accepted an invitation from our good 
friend and close colleague, Senator Domenici, to come to 
Washington and work in his Senate Office. Dr. Lyons worked for 
Senator Domenici for almost 10 years on issues related to 
nuclear energy, global and non-proliferation, energy policy, 
and programs involving the Department of Energy. He may call on 
you to come back on a sabbatical to get his bill through. It is 
coming up pretty soon, I think. So maybe we had better move 
along pretty quickly.
    I had the opportunity recently to visit with Dr. Lyons in 
connection with this new appointment. We discussed concerns we 
both share about the decline in the number of scientists and 
engineers who are graduating from colleges and universities in 
this country, and about the need for nuclear power. I feel very 
strongly about that.
    I very much enjoyed our conversation and meeting. I 
understand that your lovely wife is here today. I will accede 
to the Chairman's desire to have you introduce her.
    So I strongly recommend to the committee, and then I shall 
do so to the full Senate, the advice and consent be conferred 
upon this man, that he be allowed to accept the President's 
appointment.
    Thank you very much.
    Senator Inhofe. Thank you, Senator Warner.
    If you would like, Mr. Jaczko and Dr. Lyons, to introduce 
any family who is here, this is the time to do it.
    Mr. Jaczko. Actually, I am accompanied by my staff, which I 
think is my new family.
    [Laughter.]
    Mr. Jaczko. So I do not have any other family members here.
    Mr. Lyons. The only family member who was able to be here 
today is one of my three sons, David.
    Senator Inhofe. Good. David, we welcome you here.
    Mr. Lyons. Also there are several members of my staff here. 
Thank you, sir.
    Senator Inhofe. All right, good.
    Mr. Jaczko, you may start off with your opening statement. 
If you want to limit your comments, your entire statement will 
be placed in the record.

 STATEMENT OF GREGORY B. JACZKO, NOMINATED BY THE PRESIDENT TO 
        BE A MEMBER OF THE NUCLEAR REGULATORY COMMISSION

    Mr. Jaczko. Thank you, Mr. Chairman. First, I would like to 
thank Chairman Inhofe and Senator Voinovich for the kind words 
that you had to say about me in your opening remarks. I do 
appreciate that very much. I appreciate Chairman Inhofe and 
other committee members for inviting us here and giving us this 
opportunity to testify before the Environment and Public Works 
Committee.
    It has been a privilege for me to serve as a Commissioner 
on the U.S. Nuclear Regulatory Commission since January of this 
year. I have spent the last 3 months learning about the 
Agency's processes, programs, and structure. I have had an 
opportunity to travel to several of our regional offices to 
visit nuclear power plants, as well as nuclear fuel cycle 
facilities. I have had an opportunity to visit six different 
States, as I said, in three of our four regions.
    I have made a point of reaching out to various stakeholders 
in the industry to hear firsthand their views about the impact 
that the NRC's policies have on licensees in the communities 
around the Nation. I look forward to continuing to serve the 
public in my new role. As I said, it is an honor for me to be 
here today.
    As the Nation's regulator of commercial uses of nuclear 
materials, the NRC serves an important public policy role. Its 
efforts are defined clearly in its mission statement, which has 
been developed over several decades through guidance from the 
Congress and this committee, in particular.
    As you know, the mission of the NRC is to license and 
regulate the Nation's civilian use of nuclear materials, to 
ensure the adequate protection of public health and safety, 
common defense and security, and the protection of the 
environment.
    I believe this is a very concise and powerful statement. I 
see my challenge as a Commissioner is to interpret and put into 
practice this mission statement in an effective regulatory 
framework.
    I appreciate the important oversight role that this 
committee has played in the work of the NRC, and I look forward 
to working closely with the committee to develop and foster 
that relationship.
    I also look forward to building new relationships, and 
productive and collaborative relationships with the licensees 
and stakeholder groups to accomplish this goal.
    I will pledge that I will work with licensees to ensure the 
NRC's programs and regulations continue to promote the safety 
and security of our Nation's nuclear facilities.
    The role that Congress, State and local governments, and 
stakeholders play in this process is very important. The 
Congress represents the interests of the American people by 
ensuring the safe and secure use of nuclear materials. I look 
forward to hearing those views on the issues facing the NRC and 
ensuring that these concerns are appropriately addressed within 
the Commission.
    I would also like to say that I have been very pleased to 
work with the NRC staff. Chairman Inhofe, you mentioned the 
bureaucracy, and I think the NRC is fairly small when it comes 
to bureaucracy. We have about 3,000 employees. But I have found 
that it is a very dedicated, very skilled, and very talented 
group of people, and I have been very fortunate to work with 
them.
    As I said, I have had an opportunity to not only be in our 
headquarters offices, but also to visit our three regional 
offices, and see some of the people who are out in the field, 
which I think is, in some sense, really the face of our Agency.
    I will also work to foster a sense of trust and openness 
between the NRC staff and the Commission. Because I believe 
that is crucial to our Agency conducting its mission and 
achieving its mission.
    I believe that my background enables me to achieve these 
goals. I have a Bachelor's Degree and a Doctorate in particle 
physics. I also had an opportunity to serve as an adjunct 
professor at Georgetown University.
    I have also had the opportunity to work both in the U.S. 
House of Representatives and here in the Senate, working both 
for this committee and members who serve on this committee.
    My professional life has been devoted to science and its 
impact on public policy. I see my position as an NRC 
Commissioner as a logical extension of that path.
    The challenges the Agency faces in the years to come are 
numerous and varied, from integrating safety and security into 
our nuclear power plant regulatory framework, to ensuring the 
safe use of nuclear material in medical and industrial 
applications, to maintaining transparency and openness in our 
post-September 11th environment.
    Openness, specifically, has been a vital focus, at least as 
far back as the early 1990's, with Chairman Ivan Selin's belief 
that the Agency should increase its ``efforts to reach out to 
the public at large, to recognize how important public 
credibility is to the achievement of its regulatory goals.'' I 
believe that is just as true today as it was then.
    I look forward to delving into these important issues with 
all my fellow Commissioners, with Commissioner Lyons, the NRC 
staff, and all interested stakeholders.
    I pledge to you to consider the complex policy issues that 
come before the Commission in a fair, objective, and open-
minded manner, based on my scientific and public policy 
background, and an awareness of the direct impact that the 
decisions I make have in our communities and on our licensees.
    As I said, I look forward to working closely with this 
committee, as you provide guidance and direction. I welcome any 
questions you may have this morning, and I will be responsive 
to your concerns in the future. Again, I want to thank you for 
the opportunity to testify today.
    Senator Inhofe. Thank you, Dr. Jaczko.
    Dr. Lyons.

STATEMENT OF PETER B. LYONS, NOMINATED BY THE PRESIDENT TO BE A 
          MEMBER OF THE NUCLEAR REGULATORY COMMISSION

    Mr. Lyons. Thank you, Chairman Inhofe, Senator Carper, 
Senator Lautenberg, Senator Warner, Senator Voinovich. I thank 
you very much for the opportunity to testify before your 
committee. It is an honor and a privilege to appear before you 
today.
    I was greatly honored by my recess appointment by the 
President to serve on the NRC. After being sworn in on January 
25, I have been busy, along with my fellow Commissioners, in 
deliberations on a variety of issues.
    During these few months of NRC service, I have valued the 
guidance from the three senior members of the Commission, and 
support from the outstanding and dedicated staff at the NRC.
    Nuclear energy is a vital component of our Nation's energy 
portfolio, providing 20 percent of our Nation's electricity. 
Nuclear technologies are important to many other industries, 
and help to underpin our Nation's strong economy, quality of 
life, and standard of living. But nuclear energy and other 
nuclear technologies will be utilized only if safety, security, 
and environmental considerations are addressed to the 
satisfaction of the public.
    The Commission has a vital role with respect to the safety 
and security of our civilian nuclear plants, fuel cycle 
facilities, and other civilian applications of nuclear 
technologies. The challenging and crucial nature of the 
Commission's decisions is absolutely important on all of these 
issues.
    I want to assure the committee that I am committed to 
careful evaluation of the facts of each case on which I render 
a decision. I pledge to you that all decisions I make will be 
based on the existing laws and regulations and on the merits of 
each specific case.
    I believe that my past experience will be useful in my 
service on the Commission. My academic training, particularly 
in nuclear physics at Cal Tech, my three decades at Los Alamos, 
and my 8 years on Senate staff have prepared me, I believe, for 
this new role.
    I have always viewed national security as a very broad 
arena, to include our Nation's military, economic, safety, and 
environmental well-being. Within that broad definition of 
national security, I have contributed to a very wide range of 
national security interests, throughout my service at Los 
Alamos and in the Senate.
    I view this service as a Commissioner as another 
opportunity to contribute to our Nation's security through the 
NRC's focus on safety, security, and environmental impacts of 
civilian uses of nuclear technologies.
    My experience at Los Alamos provided many lessons relevant 
to this appointment. At the laboratory, I led and managed very 
large, complex national security projects with critical 
deadlines and complex safety issues, involving hundreds of 
scientists.
    During my time on Senate staff, I supported policy 
deliberations on a wide range of civilian and military nuclear 
issues.
    I will draw on this range of knowledge and experience as I 
discharge my responsibilities on the Commission.
    I look forward to future interactions with this committee. 
I assure you that I stand ready to respond to any and all 
inquiries from this committee, and that I welcome guidance from 
your committee, now and throughout my tenure at the NRC, as I 
discharge my responsibilities at the Commission. I look forward 
to answering your questions, and I thank you for the 
opportunity to appear here today.
    Senator Inhofe. Thank you, Dr. Lyons.
    The Chair, at this point, would yield to Senator Warner for 
comments.
    Senator Warner. Just very quickly, Mr. Chairman and members 
of the committee, I think we are fortunate to have two 
eminently qualified individuals. Both of you have my strongest 
support.
    Again, Dr. Lyons, I return to the discussions that we had 
in my office regarding the future of nuclear power. I do not 
want to go into a great dissertation on this, but I do believe 
our country has to look at that. You can see the rest of the 
world moving, in some way, toward greater accessing of nuclear 
power. Is that not correct? You see it in Europe. You see it in 
Asia.
    Mr. Lyons. Very much so, sir.
    Senator Warner. We simply cannot ignore this opportunity. I 
want to assure the American public that I take a position of 
urging consideration of nuclear power, from the standpoint of 
one who has associated with the Navy basically my entire 
lifetime. The safety record there is extraordinary; no 
incidents of any danger to the individuals.
    The safety records of nuclear power throughout the world, 
have there been any incidents recently of harm to individuals 
in the growing nuclear power industry elsewhere in the world?
    Mr. Lyons. To my knowledge, there are no recent significant 
incidents.
    Senator Warner. To mine, either. So I do hope Americans 
keep an open mind, as we see our gasoline prices at the pump 
climb.
    You have talked about this, Mr. Chairman, China drawing so 
much of the world's resources of energy now that we have to 
look at these alternatives. I thank the Chair and members of 
the committee.
    Senator Inhofe. Well, thank you, Senator Warner, and I 
agree with all of your comments. We have been joined by Senator 
Carper.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Senator Warner mentioned his experience with the Navy. 
Along with other services in the Armed Forces in our country, 
he served as the Secretary of the Navy for a number of years.
    I think I have shared with him this story. But about 2 
years ago, I took our son's Boy Scout troop to Norfolk Naval 
Station. I do this about every other year. We visit ships and 
submarines and air craft carriers. We sleep in the beds and eat 
in the galley. It is a lot of fun for them and, frankly, for me 
and the adults who go along, too.
    A couple of years ago when we were there, about 3 years ago 
now, one of the ships that we visited was the Teddy Roosevelt. 
It is 1,000 feet long. It is about 30 stories high. When it 
goes to sea with the Air Wing aboard, there are about 5,000 
sailors and 75 aircraft. The Teddy Roosevelt stops to refuel 
once every 25 years.
    Senator Warner. In other words, those sailors sleep on full 
reactors.
    Senator Carper. They sleep right on those reactors. You and 
I have known a number of people who live on reactors on the 
submarines and aircraft carriers and other ships.
    We live in a day when today, close to 60 percent of our oil 
is imported. We have these huge trade deficits. Nuclear power, 
while not having a perfect record has, I think, a distinguished 
record, especially in the U.S. Navy.
    Senator Warner. We might add the pollution factor.
    Senator Carper. Absolutely.
    Senator Warner. We realize with our environment, how hard 
you are working on cleansing the air, yourself. You are a 
pioneer now on this committee on the question of clean air. If 
there is any question about that, nuclear power is a major 
contributor to our clean air.
    Senator Carper. As we wrestle with multi-pollutant 
legislation, we do not have to worry about sulphur dioxide 
emissions from these plants. We do not have to worry about 
nitrogen oxide, mercury, or CO<INF>2</INF> at all. For us to 
ignore that kind of potential, we do so at our own peril.
    Having said all that, and as one who is an advocate of 
developing the next generation of nuclear power plants to 
create some of our electricity, your job, your role, is all the 
more important.
    We have come to, I think, a point in our Nation's history 
where a lot of people who have been skeptical, dubious, of 
nuclear energy, because of the safety concerns, what do we do 
with the waste, and do we have to worry about a Chernobyl or 
Three Mile Island incident? We always have to be mindful and 
vigilant that that can happen.
    But your jobs are more important than ever. Just at a time 
when people are willing to take a second look to consider how 
we might better utilize nuclear power to meet our energy needs, 
your role is all the more critical and you need to be all the 
more vigilant. We appreciate your service, and we are glad that 
you are here today. We look forward to asking you questions. 
Thank you.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Obama, we have concluded with opening statements. 
But if you have one, we would recognize you at this time.
    Senator Obama. Thank you, Mr. Chairman.
    I am happy to wait and participate in the question and 
answer portion.
    Senator Inhofe. All right, sir.
    Well, I will go ahead and start. Dr. Jaczko, I could not 
believe it was you when I walked through that door, with your 
bright and shiny smiling face. I could not see any horns. I 
just am delighted that you are not what I expected.
    I think it would be unreasonable for this committee to ask 
any former staffers to recuse themselves from areas which they 
have dealt with before, because you have dealt with all areas, 
both of you have.
    I do not think it is unusual, though, that if there is a 
particular area that you have been committed to, that has been 
such a topic of conversation, that we would request a recusal.
    I understand that you did recuse yourself for a period of 1 
year on issues dealing with Yucca Mountain. The only tough 
question you will get today is, will you continue to recuse 
yourself for the rest of your service on items dealing with 
Yucca Mountain?
    Mr. Jaczko. Mr. Chairman, to answer that question, I think 
I want to say, first of all, that I do believe I can be fair 
and objective on all matters, including Yucca Mountain, that 
may come before me as a Commissioner. I agreed to recuse myself 
for 1 year, because I thought it was appropriate given, I 
believe, the perceptions about my ability to be objective and 
fair.
    My hope is that within 1 year, I will have demonstrated 
that absolutely I can be fair and objective. My hope is that at 
the end of my recusal, that the answer to that question will be 
self-evident, whether or not I need to further recuse myself. 
But I will certainly continue to discuss with our Office of 
General Counsel, as well as other members of the Commission, 
what my appropriate action should be on any matters, including 
Yucca Mountain, after that recusal.
    Senator Inhofe. Well, you know, there is some precedent for 
this. It was Commissioner Curtis, a few years ago, who had had 
a very similar association with Seabrook. He did recuse 
himself, by letter to us, in his tenure of service. So if that 
is the request I make of you, do I understand that you prefer 
not to do that?
    Mr. Jaczko. I would certainly review that. I am not 
familiar with all the details of his circumstances, and I will 
certainly review that with the Office of General Counsel and 
seek their advice on the similarities with my circumstance.
    Senator Inhofe. All right, and to both of you, I think what 
Senator Warner said certainly speaks for, I think, all of us on 
this committee. As we look at the energy crisis that we are 
faced with today, and you see how far we have come in nuclear 
energy. Yet, we know that, in my opinion, we are going to have 
to dramatically expand the use of nuclear energy over the 
coming years.
    Now to do this, it is going to mean that you will have to 
continue the very aggressive record that the NRC has had in 
granting licenses and renewals and this type of thing. I would 
just ask each one of you, you have been on the job now, so you 
are pretty familiar with what resources you have. Do you have 
the resources to keep up that record, the record to which the 
Commission has been challenged, in terms of new facilities and 
expansions?
    Mr. Jaczko. I could begin. I certainly think this is 
something that we are taking a very good look at, in making 
sure that we do have the resources to do that. I think, right 
now, we have some uncertainties because we do not have any 
definite new license applications. I think it makes it, of 
course, difficult for us to plan and budget until we have some 
definite idea of what exactly we may be receiving in terms of 
new license applications.
    So I think we certainly have resource challenges, from a 
human capital standpoint, which I know this committee has been 
very, very interested in, and has introduced legislation on 
those issues. Certainly, maintaining that expertise is an 
important part of what we need to do to make sure we have the 
resources and ensure that we are providing the new expertise as 
members of our staff retire.
    Senator Inhofe. OK, very good.
    Dr. Lyons, do you have any thoughts on that?
    Mr. Lyons. Senator Inhofe, before Commissioner Jaczko and I 
arrived, the Commission had been demonstrating a very 
impressive record on license renewals. I believe they have 
processed about 30 license renewals to date. They have been 
doing it on a very time-effective, predictable basis. 
Certainly, I look forward toward continuing that record.
    I think I have perhaps two specific comments. While the 
license renewals are important, I think it is also of 
substantial interest that in two recent cases, license renewals 
have been not denied, but returned to the licensee as being 
inadequate. As we look at license renewals, it is very 
important that we demand that they maintain the high standards 
of the ones to date.
    On the subject of new reactors, if such applications are 
submitted, I have a very strong concern, which I have expressed 
in some Commission meetings, that we are not adequately 
budgeting for at least what industry is proposing in the way of 
new license applications. I am concerned about that.
    Senator Inhofe. I see.
    Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    It is interesting to see now how the outreach, if I can 
call it that, for consideration of nuclear power is certainly 
there.
    I would ask this. There have been a couple of notorious 
failures of plants that were built and never really operated. 
They were abandoned, finally. One was in New Hampshire. One was 
in Long Island, and another was in Washington. Each one was a 
loss of several billion dollars, and several billion dollars at 
a time when a billion was a lot of money.
    The fact of the matter is that there ought to be something 
in the history of those that tells us about the things that 
prevented these plants from ever really operating. One, I 
think, was low power for while, and it eventually shut down.
    So I do not know whether either of you are familiar with 
those situations, or if you are familiar enough to even talk 
about them at the moment. But if not, I would ask you each to 
take a look at the history, and see what it is that went wrong.
    Dr. Lyons, you know, in my State, over 50 percent now of 
our energy is created from a nuclear facility. We worry a lot 
about the safety standards. It is a very crowded State. It is 
the most densely populated State in the Union. As I mentioned 
in my opening remarks, the oldest nuclear plant in the country 
is there at Oyster Creek.
    I am told that the NRC standard for safety is only that it 
be, and here I put this in quotes, ``adequate.'' Does that 
sound like an appropriate target for safety, adequate?
    Mr. Lyons. Senator Lautenberg, that is the statutory law 
for the NRC, to provide adequate protection of safety and 
security. Adequate, I believe, is defined in the minds of the 
five sitting Commissioners as they evaluate the safety against 
other risks that we also face. It is the judgment of the 
sitting Commissioners to establish that definition of adequate, 
consistent with the statute.
    Senator Lautenberg. It hardly sounds adequate to me, when 
you think about it. I think it needs a broader review of what 
that standard ought to be. Does it mean that under any 
condition, that there is no danger? With the storage of the 
rods in pools of water, which the National Academy of Science's 
report indicates that there are threats from the storage in 
that form, why has the NRC taken the opposite position on this 
question? Do you know, Mr. Jaczko?
    Mr. Jaczko. The NRC's mission, as I mentioned in my opening 
remarks, and as you said, is to protect the public health and 
safety. Obviously, this term, adequate, is in there, and that 
is a challenge for us to understand what that means.
    But we take very seriously that public safety mission, as 
an Agency. We have, for a long time, reviewed the safety and 
security of the spent nuclear pools. We have done reviews of 
the security situation, and believe that there are methods in 
place to provide safety, in the event of incidents at the spent 
fuel pools.
    So we do believe that they are safe, and that they can 
continue to be operated safely. But we also take very seriously 
the recommendations of the National Academy, and are currently 
reviewing those to see if there are changes that we need to 
make in order to better improve the safety of these facilities.
    Senator Lautenberg. I would appreciate that, and would like 
you to get back to me when that review is completed. The 
scientists who wrote the National Academy of Science's report 
identified the Oyster Creek plant in my State as particularly 
vulnerable to terrorist attack. That was because the pool of 
spent fuel rods sits on top of the plant, and it is not 
protected by 3-foot thick walls that surround the reactor.
    Is there any plan, that either of you know of, by the 
Commission, to require that these rods be moved to dry casks, 
which I believe is far safer than the pool storage?
    Mr. Lyons. Well, at many reactor sites, there is movement 
to dry casks, as the spent fuel pools are becoming more full. 
There is not a specific requirement from the NRC, at least at 
this time, forcing movement from the pool to the dry cask. As 
Commissioner Jaczko indicated, in the assessment of the NRC, 
both the pool storage and the dry cask storage are safe means 
of storage.
    Senator Lautenberg. Well, again, with our pool storage on 
top of the plant and not surrounded by protected material, it 
makes us very concerned about what kind of attack could come to 
a very dangerous material, once released in the air. So I 
appreciate the fact that you are the qualified candidates that 
you are, and I am sure that we will move expeditiously on this.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Let me just get a request in here. I do want to submit for 
the record a copy of Commissioner Curtis' recusal, and ask you, 
Dr. Jaczko, if you would review it and respond to whether or 
not you might reconsider and agree to do what he did. So I will 
be sending that to you.
    [The referenced document follows:]

                                                      May 19, 2005.
Hon. James M. Inhofe,
Chairman, Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
    Dear Chairman Inhofe: Thank you again for the opportunity to 
testify before the U.S. Senate Committee on Environment and Public 
Works on April 20, 2005. It was an honor to appear before you to 
discuss my nomination to the Nuclear Regulatory Commission (NRC). I 
appreciate your graciousness and appreciate the assistance of your 
staff.
    During my nomination process, I agreed to recuse myself from making 
public statements and voting on the Yucca Mountain project for 1 year. 
I agreed to take this step to allow an appropriate period of time 
during which I could demonstrate that I can be fair and objective on 
any matter that comes before the Commission.
    I am writing to respond to your request that I consider an 
additional recusal from Yucca Mountain issues. I have reviewed the 
circumstances of the former NRC Commissioners you mentioned in the 
hearing and consulted with the Office of the General Counsel. After 
careful consideration of your concerns, and upon the advice of the 
Office of the General Counsel, I do not believe that an additional 
recusal is necessary. I would be pleased to meet with you or your staff 
to discuss the issue in more detail.
    Please be assured that I will continue to exercise my duties 
according to the highest ethical and legal standards which bind me and 
my fellow commissioners. I am confident that my work on the Commission 
will demonstrate my commitment to those standards.
    Again, I appreciated the opportunity to appear before your 
Committee and to address this important subject. Please do not hesitate 
to contact me if you have questions or concerns.
            Sincerely,
                                                 Gregory B. Jaczko.

    Senator Inhofe. Senator Voinovich.
    Senator Voinovich. I would just like, for the members of 
the committee, to remind them of what the Chairman said. We 
have introduced three pieces of legislation: reauthorization of 
the Price-Anderson nuclear insurance program; long-overdue 
nuclear safety; and reauthorization of the fees that make up a 
large part of the NRC's budget.
    I assume that both of you are familiar with that 
legislation, and I would like your comments on whether or not 
those three pieces would be helpful to you in accomplishing 
your respective responsibilities.
    The other is that we are going to have another oversight 
hearing at the end of this month on the Nuclear Regulatory 
Commission. The Chairman and I are trying to find a date when 
we can have a closed session, classified briefing on the 
security. Because I think this is very, very important that the 
members of the committee are brought up to date on where we are 
in terms of safety.
    I have been concerned about the personnel situation for a 
long time, frankly, on another committee that I chair, and that 
is the Oversight of Government Management in the Federal Work 
Force. I would just like you to comment on your observations in 
terms of whether or not you have the people to get the job 
done.
    Now, Mr. Diaz came to see me, and he said that he needs 
another 50 people, Mr. Chairman. He needs a budget increase if 
he is going to get the job done, particularly if you guys get 
involved in some new reactor licensing, which I understand may 
be forthcoming here in the next several months. I would like 
you to comment on that, both of you.
    Mr. Jaczko. On the first question, if I could, Senator 
Voinovich, on the issue of the legislation, the one thing I 
would like to stress is for us, the importance of the fee 
reauthorization. That is extremely important, because without 
that legislation, I believe we would revert back to a 33 
percent fee recovery. That would be a dramatic change in our 
budget. So that is a very crucial piece of legislation for us, 
for this year.
    Senator Voinovich. The current legislation provides 90 
percent by the industry, and 10 percent.
    Mr. Jaczko. That is right.
    Senator Voinovich. Mr. Chairman, I talked to Senator 
Domenici also about maybe bumping their budget a bit, across 
the Feds, another $2 million. But the people in the industry 
would have to come up with some more money. I understand if 
they can get the right people, and move things through and have 
an efficient operation, they are willing to pay it.
    Mr. Jaczko. I think that does get into your second question 
of our resource needs. I have been very impressed, since I have 
been at the Agency, with the planning that is going on to 
ensure that we replace the knowledge that, in many cases, 
resides in the people that we have in the Agency. There is a 
lot of work going on to ensure that we will continue to have 
the expertise we need to address these issues.
    That having been said, they are definitely challenges. If, 
in fact, we get into an era of new licensing action, we will be 
doing things that the Agency has not done for a long time. So 
it is crucial that we have the resources. We certainly support, 
obviously, anything that Chairman Diaz believes is necessary 
for increased budgets to support those activities.
    Mr. Lyons. Certainly, on the three pieces of legislation, 
those are very positive. From the perspective of the 
Commission, we greatly appreciate that.
    When I visited with you earlier, we talked about the human 
capital issues, and I share your very strong concern and 
interest in those areas. At the same time, I have also been 
very impressed in my time on the Commission to see the extent 
of the planning which is going in to address the human capital 
issues at the Commission.
    Areas like knowledge management, knowledge transfer to new 
staff, and a wide range of very effective recruiting tools are 
being used by the Commission. At least, to date, they have 
succeeded in attracting, appropriately, highly qualified 
candidates for open positions.
    But I share your concern, and I believe that human capital 
issues are a growing issue throughout all of the different 
industries and Government functions that utilize nuclear 
technologies.
    Senator Voinovich. Do you think the portion of the 
legislation that deals with people who have retired and are 
determined that they would be very helpful in the transition to 
a new work force, to take on the responsibilities that you 
have, is worthy of consideration?
    I know there are some people that they know the idea well, 
and I think everyone is familiar, that if you leave an Agency 
and you take your pension, you cannot be brought back to the 
Agency, even if you are really needed, unless you have your 
pension offset. This would allow a waiver of that so that 
people could be brought back on a temporary basis that are 
deemed to be very essential to the training of new people and 
the transition. Do you want to react to that?
    Mr. Lyons. Well, Senator, I believe you said it very well. 
I think it is a critical piece of legislation. You emphasized 
the knowledge transfer to newer staff.
    However, I do not think one wants to rely for a long period 
of time on individuals brought back under that mechanism. We 
should transfer the knowledge.
    But I do think that having that mechanism will allow a much 
more effective knowledge transfer to new staff. From that 
standpoint, I think it is very important.
    Senator Voinovich. I would just like to point out a final 
note for the members of the committee. Several years ago, the 
Nuclear Regulatory Commission had six times the number of 
people over 60, as they had under 30. So they have this big 
bathtub where these retirements are here in this period there, 
where they have not brought in any young blood. So you have a 
real human capital challenge.
    Senator Inhofe. That is kind of like the Pope.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Mr. Jaczko, I want to commend you for your decision to 
recuse yourself from all matters pertaining to Yucca Mountain 
for at least the next year. I am mindful of the request that 
the Chairman has made, and am pleased that you are going to 
discuss that with the counsel in the agencies, and make a 
decision. I do not know that it is a recusal that needs to be 
continued. But I am pleased that you have at least done it for 
this 1 year.
    First of all, let me say to Mr. Lyons, you were good to 
come by and visit with me a couple of months ago, and I thank 
you for that. As I recall, our meeting was interrupted by a 
call from our Secretary of State that I was compelled to take, 
and I apologize for that.
    I would like to talk with both of you, but especially with 
you, Mr. Lyons, about the issue of disposal of our nuclear 
waste and the storage of those nuclear wastes. It is an issue 
that continues to concern us all. I would just ask if you could 
give us an update on what is going on, in terms of preparing a 
long-term repository for those nuclear wastes at Yucca Mountain 
or perhaps some other place.
    Mr. Lyons. Well, from the Commission's perspective, 
Senator, we must await the application for a license from the 
Department of Energy for Yucca Mountain or any future 
repository. So at the moment, the Commission, I would say, is 
in a difficult position of trying to plan for a very large 
quantity of work that will come with that license application, 
while at the same time having very little ability to predict 
precisely when that application will come in.
    At the moment, the NRC has to be in the mode of preparing 
to accept that application in terms of appropriate staffing and 
appropriate changes in our operations in Las Vegas, to prepare 
for that eventuality. As far as other possibilities, it was 
already mentioned previously that dry cask storage is being 
used at a number of sites, and probably is going to be used at 
still more sites.
    From the Commission's perspective, that is certainly a safe 
method of storage. Whether all sites have sufficient room to 
accommodate large number of dry casks, I simply do not know. I 
can anticipate that the Congress may need to look at other 
possibilities, depending on the future disposition or future 
outcome of a license application on Yucca Mountain.
    Certainly, the Congress could consider other alternatives 
for a national strategy for spent fuel. But for now, the dry 
cask and the spent fuel pools are a safe approach.
    Senator Carper. Thank you.
    Last week, all three members of our congressional 
delegation in Delaware joined with several other Members of 
Congress in submitting a letter to David Walker, who is the 
Comptroller General of the United States. It is a two-page 
letter dated April 14, and I doubt that it has come to your 
attention. But in the letter, we ask General Walker to review 
the NRC's reactor oversight process.
    I would just ask if you have any opinions of the reactor 
oversight process; and if so, do you have any suggestions for 
how that might be improved. Mr. Lyons? Then I would ask Mr. 
Jaczko, as well.
    Mr. Lyons. I have been very impressed by the Reactor 
Oversight Process, and I have been trying to learn more about 
it. I still have a great deal more to learn.
    The Reactor Oversight Process was a very deliberate 
movement toward risk informed and performance-based inspection 
over the last few years by the Commission, and I believe that 
is a very positive step. The so-called ROP, the Reactor 
Oversight Process, is under constant review.
    There will be a meeting. I do not know the exact date later 
this summer when the Commission will review the ROP. In the 
visits that I have had at nuclear power plants so far, I have 
been very impressed with how the ROP is being applied. But 
also, I have been impressed in the way that the inspectors 
onsite are constantly looking at ways to improve that process.
    So I anticipate that the ROP is an evolving process. I 
think it is a very solid foundation, and it is one that we will 
look toward further improving.
    Senator Carper. Good, thank you.
    Mr. Jaczko.
    Mr. Jaczko. I would have to largely echo the comments of 
Commissioner Lyons. It is a somewhat new process that we have, 
and I think certainly a review would be a positive development. 
It is a process that we are reviewing right now.
    There are various aspects of the Reactor Oversight Process 
that are new since September 11th. For instance, we are trying 
to work through how we properly incorporate security elements 
of inspections into that process in a way that ensures that we 
are properly protecting public health and safety.
    So there are always elements of it that we are reviewing, 
and I think we will continue to do that. But I think, in 
general, it has been an effective mechanism for us to conduct 
inspections in a way that is transparent, and that is clear and 
concise for the licensees that we regulate.
    Senator Carper. Thanks very much; thanks, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Obama.
    Senator Obama. Mr. Chairman, I appreciate the opportunity. 
But actually, between Senator Voinovich, Senator Carper and 
myself, I think most of my questions have been answered. These 
two gentlemen seem eminently qualified.
    I would just note that Illinois actually has the most 
nuclear power plants of any State in the country. So issues of 
long-term strategies for nuclear waste, how we are storing 
those, are extraordinarily important to us. Obviously, that is 
something beyond the scope of this particular hearing. But over 
the long term, it is something that I would be very interested 
in seeing how we are moving.
    I guess I would just have one general question. That is, I 
actually am somebody who believes that we have been too 
reticent to move forward with nuclear power as an important 
energy source and alternative fossil fuels.
    I would just be interested in your two perspectives, very 
generally, of what you think are the biggest impediments for us 
expanding nuclear capacity in a way that is safe. Is the 
biggest problem right now the issue of waste, or is it that the 
regulatory burdens, in terms of design, are such that it is 
very difficult for people to make the investments, or companies 
to make the investments possible? I would just be interested in 
your general philosophies on how you think we can, in an 
intelligent, safe, secure way, move forward so that we can meet 
our long-term energy challenges.
    Mr. Jaczko.
    Mr. Jaczko. Senator, I will not address the nuclear waste 
issue, because of elements of my recusal. But I will say, some 
of the issues that have been touched upon here, I think, one 
could call them impediments.
    They are probably challenges more in terms of how we deal 
with potential new applications for nuclear power. They have 
really to do with our resource needs, in making sure that we 
have the personnel and the staff to do license reviews, which 
is a complicated process that has not been done at our Agency 
in a comprehensive way for a long time.
    So that is probably the biggest challenge that we face as 
an Agency in responding. As a regulatory commission, it is our 
job to be responsive to license applications that may be 
presented to us or other decisions by the private industry or 
Congress or other policymakers, in terms of our energy 
decisions. So for us, as I said, I think the biggest challenges 
will be in our resources.
    Senator Obama. Just on this issue license review, I am 
wondering, my understanding, at least, is that other nations 
move more aggressively and have greater reliance on nuclear 
power. They employ more of a cookie cutter approach to 
construction and development of nuclear plants. As a 
consequence, the licensing becomes less cumbersome, because you 
are not reinvesting what a nuclear power plant looks like, each 
and every time.
    So I am just wondering, and again this is more of a policy 
strategy issue than it is the particulars of your regulatory 
function. So if you want to beg off, you can. But I am just 
curious as to whether you think that part of the problem here 
is that we do not seem to have a clear set of construction 
safety guidelines for new power plants that would allow us to 
streamline the licensing process.
    Mr. Jaczko. We are trying to do that, I think, absolutely. 
We have a new process for licensing that has never been used 
before. But it attempts to address that issue a little bit 
better.
    That process would work in what we call design 
certification. So there are several designs for new reactors 
that have already gone through a process of review. That design 
certification then, if that design is used by a new licensee, 
it does not need to go through a further review.
    Senator Obama. OK, so that already exists.
    Mr. Jaczko. That already exists, yes.
    Senator Obama. If I am a power plant company, why would I 
not always want to go with that? Is it because I think I can 
build it cheaper, using a different design?
    Mr. Jaczko. That is, I think, an interesting question. In 
many ways, that is how our Nation is different in our nuclear 
power industry, in that many other nations have gone to a more 
uniform approach.
    Here, this is largely, I believe, because of economic 
reasons, utilities have purchased designs, and then had an 
architect, and they would modify the designs in order to 
achieve the maximum economic benefit for that particular plant 
at that particular time. So the intent of our licensing 
framework is to try and do it in a way that is more uniform and 
more standard to facilitate that.
    Senator Obama. Mr. Lyons, do you have anything to add to 
that?
    Mr. Lyons. I think Commissioner Jaczko covered it quite 
well. I have perhaps a few additional comments. In addition to 
the certified designs, Part 52 allows a utility today to not 
only obtain the construction license, but also the operating 
license, before they start construction.
    That process has never been tested, as Commissioner Jaczko 
said, and that leads to regulatory uncertainty. That is at 
least one of the factors that I believe will be carefully 
considered by any utility as they approach construction.
    But there will be other considerations, too. The fact that 
we have not constructed a reactor in this country for 
approaching three decades now means that there is uncertainty 
in the costs for that construction.
    You referenced the modular construction, which is being 
used throughout the world now. That has never been used in this 
country. It had not been invented yet at the time we built our 
plants. Now, if new plants are built, they certainly will use 
modular construction. That will certainly present some 
tremendous efficiencies in the construction process. A number 
of companies are doing construction in under 4 years.
    It also will lead to some very interesting challenges for 
the Commission. Instead of the NRC inspecting components as 
they are being constructed at one place, components are now 
being constructed all across the world.
    That is both a benefit and a challenge of the modular 
construction that you mentioned. But it does lead, and it is 
leading in a number of countries, to very quick construction. 
And as Commissioner Jaczko mentioned, the ability to stay with 
certified designs is already important in a number of places in 
the country, and that it is in place here.
    Senator Obama. Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Obama.
    Senator Carper or Senator Voinovich, do you have any 
further questions or comments?
    Senator Voinovich. Yes, I have one other question I would 
like to ask, Mr. Chairman, if that is all right.
    Senator Inhofe. All right, you are recognized, Senator 
Voinovich.
    Senator Voinovich. On the Davis-Besse problem, we had an 
oversight hearing in May of last year, and I asked the 
Commissioners whether they believed the NRC should set 
benchmarks for nuclear plants. There was some reluctance to do 
that. I would like to know your opinion about setting 
benchmarks for safety at these plants. This is the best, and 
this is what you should be striving for.
    The second issue that I raised was strengthening the 
training for the resident inspectors. Because with Davis-Besse, 
we found out not only did the company not do what they were 
supposed to do, but the Nuclear Regulatory Commission was not 
doing the job they were supposed to do. Are either of you 
familiar with this to react to this question about what is 
going on?
    Mr. Jaczko. Well, I can tell you, as an Agency, we 
obviously take the situation at Davis-Besse very seriously. 
There, as you rightly indicate, there were problems.
    Senator Voinovich. Well, let me just say this to you. One 
of the problems that you all ought to know about this is, I am 
a supporter of nuclear power and so are a lot of other people 
in this country. But when you have Davis-Besse incidents and 
other things like that, it really causes the public to be very, 
very skeptical about nuclear power. So it is really important 
that everyone knows that that is not going to happen again.
    Mr. Jaczko. We have put in place several programs to ensure 
that a Davis-Besse does not happen again. We have worked very 
hard on issues of safety culture, which is an issue that I know 
you are very interested in, and we continue to work with those 
issues.
    They are challenging issues. Getting people to identify and 
bring forward safety concerns is always a challenge. Working to 
ensure a climate that encourages that, both within the NRC and 
within the utilities, is something that we are continuing to 
work on.
    We have programs in place at the NRC. We are working on re-
vamping those programs to ensure that different views are heard 
within the Commission, so that resident inspectors and other 
inspectors are comfortable coming forward when they identify 
problems and know that those problems will be looked at.
    Senator Voinovich. How about the training of these people? 
It is very important. Do you know of any training programs that 
have come in? Have they enhanced the training of those people 
that are resident inspectors?
    Mr. Jaczko. I do not know of any, but I will get back to 
you on that.
    Mr. Lyons. I know that training is an ongoing process. 
There is now some training for our inspectors in the general 
area of safety culture. The safety conscious work environment, 
as Commissioner Jaczko indicated, is being very carefully 
evaluated at all plants now, and the residents have been 
trained in that specific area.
    Having said that, in the few visits I have had to date at 
the plants, I am extraordinarily impressed with the quality of 
the resident inspectors, and the dedication that they are 
showing toward their work.
    I certainly agree with you that Davis-Besse must never 
happen again. As I came to the Commission, I viewed as one of 
my greatest challenges efforts to ensure that a ``Davis-Besse'' 
problem (not the same incident, but that general type of 
problem) cannot happen again.
    Senator Voinovich. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Voinovich.
    Senator Carper, did you have any remaining comments?
    Senator Carper. I have one last quick one, if I could, Mr. 
Chairman. This will be really for both of you. In response to 
Senator Obama's question about the next generation of 
technology and construction for nuclear power, you mentioned 
the modular units that are being built around the world, which 
probably would be built here if we were to begin construction 
of new nuclear power units.
    As we gather here today in this room, in another part of 
the Capitol, the Senate Energy Committee has been working to 
craft a comprehensive energy bill that would reduce our 
reliance on foreign oil, which will do good things for our air 
and for our environment.
    Part of what they are examining is nuclear energy, and how 
to incentivize to encourage the next steps in producing more 
electricity more safely through nuclear power. This is not 
really in your job description, but if you have any comments 
for us, guidance or counsel, on what steps we might to take as 
a Senate in crafting a comprehensive energy bill that does 
encourage the development of the next generation of nuclear 
power plants, what might those be?
    Mr. Jaczko. Senator, I guess I will begin. I think, as I 
mentioned earlier, one of the most important things is ensuring 
that we have the resources to do any kind of licensing review, 
if that were to happen. I think that is the most important 
thing, as Commissioner Lyons mentioned.
    Some of our processes will be very new. As new processes, 
they always have problems that may be identified and quirks, 
and we will need to work through those. But the better we are 
staffed, and the better job we are able to do to plan for those 
things, the more able we will be to respond efficiently and 
timely to any license applications that come up.
    So in the short term that I have been at the Commission, 
the biggest challenge that I do see for us as an Agency is 
really in that human capital and resource management for what 
could potentially be a very different type of activity for the 
NRC.
    I would note that we want to make sure that we continue to 
do the things that we are doing now, which is to focus on the 
operational safety of the existing fleet, and not lose site of 
that as we may perhaps focus on new licensing activities, so 
that we continue to work on ensuring that we prevent any kind 
of incident like Davis-Besse from happening again. So it is 
making sure that we are meeting the existing challenges, and 
also have the resources to meet the new ones.
    Senator Carper. I would just say to my friend, Senator 
Voinovich, that as much as we may advocate the expansion and 
development of a new generation of nuclear power, the one thing 
that could undo or really take away any momentum for doing 
that, would be an incident or an accident at any of our 
facilities. That would overwhelm almost any incentive we might 
provide in the energy bill, I think, to commit to a new 
generation of nuclear power.
    Mr. Lyons, do you have any comments?
    Mr. Lyons. I absolutely agree with your comments, sir, that 
safety and security of the existing plants is one of the pre-
conditions for consideration of any new plants.
    We talked a little bit earlier about some of the 
uncertainties that will have to be addressed before a utility 
can move ahead with construction. The regulatory uncertainty, 
as Commissioner Jaczko just discussed, is certainly one of 
those areas of uncertainty.
    There are several areas of, let us say, financial 
uncertainty, from the perspective of construction times and 
construction costs, since we do not have a history in this 
country, and, in addition, the waste issue. Any or all of those 
issues would be appropriate to consider within the energy bill.
    I do not know the details of the current bill this year. I 
invested the last 3 to 4 years of my life working on earlier 
versions of that bill. I am very hopeful that we will see a 
bill this year that provides not only support for the NRC 
needed to discharge our responsibilities, but the other 
elements that will also be required.
    Senator Carper. Good. My thanks to both of you, thanks for 
being here today and for your testimony and your service.
    Senator Inhofe. Thank you very much, and we look forward to 
seeing you again when the whole Commission comes back for 
oversight. The meeting is adjourned.
    [Whereupon, at 10:45 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont
    Thank you Mr. Chairman, today we have before us the two 
commissioners who received recess appointments by the President to 
serve on the Nuclear Regulatory Commission. Greg Jaczko and Peter Lyons 
are both longtime public servants.
    The Senate has been the beneficiary of their commitment to nuclear 
issues, as they both have had distinguished careers here as senior 
Senate staff. On behalf of Vermonters, and of all Americans, I want to 
commend them both for the service that they have already given to the 
country and to the NRC.
    As both Commissioners know, the mission of the Nuclear Regulatory 
Commission is one of the most vital missions carried out by the Federal 
Government.
    Regulating the Nation's civilian use of nuclear materials, ensuring 
adequate protection of public health and safety when these materials 
are used or disposed of, and protecting the environment are all 
critical Commission functions.
    I want to make myself perfectly clear, and I know the Chairman 
shares my view: the top priority for the NRC is safety. There is no 
greater issue than safety. I want the people of Vermont and across the 
country to be safe and it is the NRC's job to guarantee it.
    As the Commissioners are well aware, there have been some serious 
problems at Vermont Yankee since the Senate's confirmation of the last 
NRC Commissioner.
    Vermont Yankee, operated by Entergy, discovered last year that two 
pieces of radioactive fuel rods were missing from the plant's storage 
facilities. Officials with Entergy Nuclear could not find two rods, one 
7 inches and another about 17 inches long. Though the rods were 
eventually located in the spent fuel pool, either was capable of 
quickly giving a lethal dose of radiation to an unshielded handler.
    Senator Leahy, Congressman Sanders, Congressman Olver, and I 
requested that the Government Accountability Office conduct a study on 
the actions that the NRC should take to ensure that nuclear plants are 
more effectively controlling spent nuclear fuel. That report was 
released on April 8, 2005.
    I have been pleased that the NRC has reacted positively to this 
report. I do not want missing fuel to become the norm.
    It is not enough to tell the public that we ``think'' it is likely 
that highly radioactive material went to storage or to spend several 
anxiety-ridden weeks looking for missing fuel.
    We must improve our nuclear materials accounting system, and we 
must do it now, and I will be asking the Commissioners for their 
commitment to move swiftly to implement the report's recommendations. I 
want to know what the NRC is going to do to prevent this from ever 
happening again at Vermont Yankee or, for that matter, at any other 
nuclear facility in America.
    Two days before the GAO report was released, the National Research 
Council released another report on the safety and security of 
commercial spent nuclear fuel. This report contains some serious 
recommendations regarding the safety and security of wet and dry fuel 
storage and access to security related information.
    For example, the National Research Council recommended that the NRC 
conduct a site specific evaluation of the spent fuel storage at each 
nuclear power plant and consider whether other alternatives, such as 
moving to dry cask storage, would improve safety as well. I expect the 
NRC to comply with these recommendations as well.
    These Commissioners have the opportunity to assure the Senate that 
they will commit to the implementation of these recommendations, and 
that they will do so in a thorough and transparent way that addresses 
the concerns of the public.
    If we are going to be serious about protecting our citizens and the 
environment while providing safe, reliable, and affordable electricity 
for all Americans, we need to make sure that nuclear plants operate 
well and safely. I will be looking for commitments from the 
Commissioners today that they are committed to this goal.
    Again, I thank the Commissioners for appearing here today. I look 
forward to their testimony.
                               __________
  Statement of Gregory B. Jaczko, Nominated by the President to be a 
              Member of the Nuclear Regulatory Commission
    Chairman Inhofe, Senator Jeffords, and committee members, I want to 
thank you for this opportunity to testify before the Environment and 
Public Works Committee.
    It has been a privilege to serve as a Commissioner on the U.S. 
Nuclear Regulatory Commission (NRC) since January 21, 2005. I have 
spent the last three months learning about the agency's processes, 
programs, and structure. I have traveled to NRC offices, nuclear power 
plants, and fuel cycle facilities in six different states and three of 
the agency's four regions. I have reached out to stakeholders to hear 
firsthand their views about the impact that NRC policies have on 
licensees and communities around the Nation. I look forward to 
continuing to serve the public in my new role.
    It is therefore an honor to be here today. As the Nation's 
regulator of the commercial uses of nuclear materials, the NRC serves a 
critical public policy role. The NRC's efforts are defined in its 
mission, which has developed over decades of guidance from the 
Congress.
    The mission of the NRC is to license and regulate the Nation's 
civilian use of nuclear materials to ensure the adequate protection of 
public health and safety, promote the common defense and security, and 
to protect the environment. I believe this is a concise and powerful 
statement. My challenge as a Commissioner is to continue the evolving 
effort to translate that mission statement into an effective regulatory 
framework.
    I look forward to continuing to build productive and collaborative 
relationships with licensees and stakeholder groups to accomplish this 
goal. I will work with licensees to ensure the NRC's regulations and 
programs continue to promote the safety and security of our Nation's 
nuclear facilities and materials. The role that stakeholders, including 
state and local governments, play in this process is crucial--they 
represent the wishes of the American people by ensuring the safe and 
secure use of nuclear materials. I look forward to hearing their views 
on the issues facing the NRC and ensuring their concerns receive the 
attention they deserve.
    And I would also like to say that I am pleased to work with the NRC 
staff. After three months at headquarters and out in the regions, I 
have been impressed by the expertise and dedication of the staff to the 
vital mission of the agency. I will work to foster a sense of trust and 
openness between the NRC staff and the Commission.
    I believe my background enables me to achieve these goals. I earned 
a bachelor's degree from Cornell University and a Ph.D., in particle 
physics from the University of Wisconsin-Madison, and I have served as 
an adjunct professor at Georgetown University. I also had the 
opportunity to work in both the United States House of Representatives 
and here in the United States Senate. My professional life has been 
devoted to science and its impact on public policy, and I see my 
position as an NRC Commissioner as a logical extension of that path.
    I believe the challenges the agency faces in the years to come are 
numerous and varied, from integrating a safety and security culture 
into our regulatory framework, to ensuring the safe use of nuclear 
material in medical and industrial applications, to maintaining 
transparency and openness in our post-September 11th environment.
    Openness, specifically, has been a vital focus at least as far back 
as the early 1990's, with NRC Chairman Ivan Selin's belief that the 
agency should increase its ``efforts to reach out to the public at 
large, to recognize how important public credibility is to the 
achievement of its regulatory goals.'' I believe that is just as true 
today as it was then.
    I look forward to delving into these important issues with all 
interested stakeholders and with my fellow Commissioners. I pledge to 
you to consider the complex policy issues that come before us in a 
fair, objective, and open-minded manner, based on my scientific and 
public policy background and an awareness of the direct impact the 
decisions I make have in our communities and on our licensees.
    And I look forward to working closely with this committee as you 
provide guidance and direction. I welcome any questions you may have 
this morning and I will be responsive to any concerns you have in the 
future.
    Again, thank you for this opportunity to testify before you today.


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

    
Statement of Peter B. Lyons, Nominated by the President to be a Member 
                  of the Nuclear Regulatory Commission
    Chairman Inhofe, Ranking Member Jeffords, and committee members. I 
thank you for the opportunity to testify before your Environment and 
Public Works Committee. It is an honor and privilege to appear before 
you today.
    I was greatly honored by my recess appointment by the President to 
serve on the Nuclear Regulatory Commission (NRC). After being sworn in 
on January 25, I've been busy, along with my fellow Commissioners, in 
the deliberations of the Commission.
    Nuclear energy is a vital component of our Nation's energy 
portfolio, providing 20 percent of our Nation's electricity. Nuclear 
technologies are important to many other industries, and help to 
underpin our Nation's strong economy, quality of life, and standard of 
living. But nuclear energy and other nuclear technologies will be 
utilized only if safety, security, and environmental considerations are 
addressed to the satisfaction of the public.
    The Commission has an important role with respect to the safety and 
security of our existing civilian nuclear plants and fuel cycle 
facilities. And if the utility industry proposes expansion of the 
Nation's nuclear energy production, the Commission must also play a 
vital role.
    For both existing and any new plants and facilities, the Commission 
must evaluate current operations and new proposals with the goal of 
ensuring that each one provides adequate protection of public health 
and safety and the environment. In addition, new and existing plants 
and facilities must address the increased security concerns that are 
present in a post-9/11 world and we must be prepared to respond to any 
radiological emergency. In addition, the Congress and the American 
people must be kept informed of our activities.
    In a similar fashion, the Commission regulates other civilian 
applications of nuclear technologies, with their widespread 
applications to medicine and other industries. Here again, the NRC has 
key responsibilities.
    The challenging and crucial nature of the Commission's decisions is 
vital on all these issues. I want to assure the committee that I am 
committed to careful evaluation of the facts of each case on which I 
render a decision. I pledge to you that all decisions I make will be 
based on the existing laws and regulations and on the merits of each 
specific case.
    I believe that my past experiences will be useful in my service on 
the Commission. My academic training in nuclear physics at Cal Tech, my 
three decades at Los Alamos National Laboratory, and my 8 years on 
Senate staff have prepared me for this new role.
    I've always viewed national security as a broad arena, to include 
our Nation's military, safety, economic, and environmental well-being. 
Within that definition, I contributed to a very wide range of national 
security interests throughout my service at Los Alamos and in the 
Senate. I view my service as a Commissioner as another opportunity to 
contribute to our Nation's security through the Commission's specific 
focus on safety, security, and environmental impacts of civilian uses 
of nuclear technologies.
    My experiences at Los Alamos provided many lessons relevant to this 
appointment. At the Laboratory, I managed and led large complex 
national security projects with critical deadlines and complex safety 
issues involving hundreds of scientists with budgets of multi-$100 
million. I participated in programs at the highest classification 
levels and assisted in cleanup of environmental problems which arose 
from the legacy of nuclear technologies used in the past, before our 
current focus on future environmental impacts.
    While in Los Alamos, I was first elected and then re-elected twice 
to serve a total of 16 years on the Los Alamos School Board. While a 
local school board certainly does not make policy decisions rivaling 
the impact of those made by the Commission, that experience definitely 
broadened my appreciation for public service and provided further 
relevant management experiences.
    During my time on Senate staff, I supported and witnessed policy 
deliberations on a wide range of civilian and military nuclear issues.
    I will draw on this range of knowledge and experience as I 
discharge my responsibilities on the Commission.
    In preparing this statement, I reviewed testimony provided by 
previous Commissioners at their confirmation hearings. I was struck by 
the statement from Kenneth Rogers in 1987 when he stated:
    I am committed to the position that the NRC is an independent 
regulatory agency that must render its decisions on the basis of a 
publicly open record. It must promptly and vigorously enforce its 
regulations, which must themselves be established on the very best 
professionally recognized technical and factual basis. However, as a 
regulatory agency whose credibility with the public is vital, the NRC 
must maintain a distinct, perceptible distance from industry and a 
totally professional posture that recognizes that distance. It is very 
important in discharging that responsibility, that the Commission does 
so in a manner of openness and candor that clearly demonstrates to the 
public and its elected representatives that the Commission's priorities 
and actions are assiduously directed to the successful fulfillment of 
that mission in an unbiased and firm manner.
    This statement of Commissioner Rogers accurately describes my own 
commitment to those same values that he described so well 18 years ago.
    I look forward to future interactions with this committee. I assure 
you that I stand ready to respond to any and all inquiries from this 
committee and that I welcome guidance from this committee in 
discharging my responsibilities.
    I look forward to addressing your questions.
    Thank you for the opportunity of testifying before your committee.


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
  Responses by Commissioners Jaczko and Lyons to Additional Questions 
                        from Senator Lautenberg
    Question 1. The new National Academy of Sciences report is very 
clear about the threats posed from the storage of spent fuel rods in 
pools of water. Please explain why the NRC has taken the opposite 
position on this question.
    Response. In general, the NRC is in broad agreement with the 
principal findings of the NAS study. We think the study reinforces the 
validity of our own studies and mirrors many of our previous 
conclusions. Many of the recommendations for additional spent fuel 
storage improvements are items we have identified and have concluded 
warrant further investigation.
    For example, the NAS has recommended NRC perform additional 
analyses to more fully understand the vulnerabilities and consequences 
of loss-of-pool-coolant events. The NRC agrees that the phenomena and 
consequences associated with potential attacks on spent fuel pools 
requires further analysis and is taking the following actions:
    The NRC is continuing to refine analytical models used to analyze 
the complex phenomena associated with cooling fuel in the spent fuel 
pool under severe circumstances.
    The NRC also is performing additional analyses of spent fuel 
cooling for both pressurized and boiling water reactor fuel.
    The NRC has contracted with Sandia National Laboratory to perform 
experimental work to confirm analytical modeling.
    The NRC is participating in an international cooperative testing 
program to examine fuel heat-up behavior in an air environment. This 
effort is a long term research project that is expected to take 5 years 
to complete.
    The NRC will independently perform site-specific assessments to 
identify additional mitigation strategies using readily available or 
beyond readily available equipment for a range of loss-of-pool-coolant 
events. This effort will be completed in Fall 2005.
    Spent fuel pools are inherently robust structures designed to 
safely contain the spent nuclear fuel under a variety of normal, off-
normal, and hypothetical accident conditions (e.g., loss of electrical 
power, floods, earthquakes, or tornadoes). Studies of spent fuel pool 
safety typically focus on events where the fuel pool walls are damaged 
and the cooling water drains away. It has long been recognized that 
spent fuel, if it is sufficiently old, can be kept cool by the natural 
circulation of air. That is the basic premise behind ``dry'' cask 
storage where fuel is stored in an inert gas environment. However, 
there is no necessity, from a safety or security viewpoint, for 
removing fuel from pools and loading it into casks.
    Based on previous evaluations, the Commission continues to believe 
that both spent fuel pools and dry storage casks provide reasonable 
assurance that public health and safety, the environment, and the 
common defense and security will be adequately protected.

    Question 2. The scientists who wrote the NAS report identified the 
Oyster Creek Plant in my state as particularly vulnerable to terrorist 
attack since the pool of spent fuel rods sits on top of the plant and 
is not protected by the three-foot walls that surround the reactor. 
Does the NRC now plan to require that these rods be moved to dry casks, 
which are far safer than the pool?
    Response. Oyster Creek Nuclear Generating Station is a General 
Electric Type 2 Boiling Water Reactor. The containment is a Mark-I 
design, which consists of a primary and a secondary containment. The 
secondary containment, or reactor building, is a physical boundary 
which encloses the primary containment.
    The reactor building also houses the new and spent fuel storage 
facilities including the spent fuel pool. The reactor building 
substructure consists of reinforced concrete which extends up to and 
includes the refueling floor. The superstructure of the reactor 
building, above the refueling floor, is a structural steel frame. The 
reinforced concrete exterior walls and the structural steel for the 
superstructure are designed for a variety of normal, off-normal, and 
hypothetical accident conditions (e.g., loss of electrical power, 
floods, earthquakes, or tornadoes). Therefore, the spent fuel pool is 
protected by the secondary containment.
    As described above, the spent fuel pool is an inherently robust 
structure designed to safely contain the spent nuclear fuel. Studies of 
spent fuel pool safety typically focus on events where the fuel pool 
walls are damaged and the cooling water drains away. It has long been 
recognized that spent fuel, if it is sufficiently old, can be kept cool 
by the natural circulation of air. That is the basic premise behind 
``dry'' cask storage where fuel is stored in an inert gas environment. 
However, there is no necessity, from a safety or security viewpoint, 
for removing fuel from pools and loading it into casks.
    The NRC, however, is reviewing the phenomena and consequences of 
potential attacks on spent fuel pools. As discussed in our response to 
your first question, the NRC will independently perform site-specific 
assessments to identify additional mitigation strategies using readily 
available or beyond readily available equipment for a range of loss-of-
pool-coolant events. This effort will be completed in Fall 2005.
    To enhance protection of spent fuel pools at reactors while the 
above-mentioned security assessments are underway, the NRC advised 
licensees on July 29, 2004, to evaluate implementing additional 
mitigative measures, as appropriate, to each specific facility.
    These mitigative measures fell into two areas: fuel management and 
emergency water makeup.
    It should be noted that licensees have already addressed pre-
planning efforts for spent fuel pool make-up water supplies under 
severe accident management guidelines, for example, the loss of spent 
fuel pool water due to nature events (e.g., earthquakes).
    The NRC is working with licensees to further improve defense-in-
depth strategies at spent fuel storage facilities, which, in addition 
to layered security measures to protect nuclear facilities against the 
terrorist threat, emphasizes mitigation measures to minimize an adverse 
effect of a possible terrorist attack on the plant's safety systems; 
and emergency-preparedness and response measures in the unlikely event 
of possible radioactivity release into the environment.
    The NRC believes that fuel storage in wet pools is safe and secure. 
The probability of a successful terrorist attack on a spent fuel 
storage facility is low, as spent fuel storage structures are 
inherently robust, and nuclear power facilities are well protected. 
There is no necessity, from a safety or security viewpoint, for 
removing fuel from pools and loading it into casks.

    Question 3. New Jersey has significant health and safety concerns 
about the ``decommissioning'' of the Shieldalloy Metallurgic 
Corporation (SMC) in Newfield. The NRC's plan that would allow SMC to 
leave 28,000 cubic meters of radioactive slag onsite in Newfield for 
over 1,000 years because it's too expensive to dispose of properly. 
This is unfair to burden the Borough of Newfield because they may not 
be able to attract developers to their available land due to the stigma 
associated with the presence of radioactive waste. SMC covers 70 
acres--or seven percent of the borough. The NRC has allowed radioactive 
wastes at the Shieldalloy Metallurgic Corporation (SMC) in Newfield to 
build up to unacceptable levels and now plans to leave 28,000 cubic 
meters of radioactive waste at the decommissioned site. It seems the 
NRC is more concerned about this company than about the families who 
live in Newfield. Will both of you promise me that this radioactive 
waste will be moved out of this town?
    Response. The NRC is fully committed to ensuring that the 
decommissioning of the Shieldalloy Metallurgical Corporation (SMC) site 
in Newfield, New Jersey will protect the public health and safety. At 
the present time, SMC is conducting environmental monitoring, including 
groundwater, surface water and air sampling. NRC inspectors conduct an 
annual inspection to review SMC's monitoring program and to conduct 
independent measurements. All monitoring data continue to indicate safe 
levels that are well below NRC's regulatory limits.
    With respect to future decommissioning, SMC is required to follow 
our regulations and an established process used by all of our licensees 
to ensure safe and appropriate decommissioning. NRC's regulations 
provide for the restricted use option for decommissioning, where 
residual radioactivity could remain onsite with institutional controls 
to restrict future uses. Although this option is available for any 
licensee, approval would be based on compliance with stringent 
regulatory requirements.
    SMC currently plans on submitting its decommissioning plan to NRC 
in November 2005. Pursuant to NRC regulations, NRC will publish a 
notice announcing receipt of the decommissioning plan in both the 
Federal Register and in local media. The notice will offer the 
opportunity for a hearing, and solicit public comments. Before a 
decision is made on the plan, NRC would conduct a detailed review to 
determine if SMC has demonstrated compliance with the regulatory 
requirements as well as an environmental review. During the review of 
the decommissioning plan, NRC will also consider the need for holding a 
public meeting in the vicinity of the site based on input received from 
stakeholders.
  

                                  <all>

</pre></body></html>
